No.

IN THE SUPREME COURT
OF THE UNITED STATES

KORY CHRISTIAN PEDERSEN,
Petitioner,

v
OREGON BOARD OF PAROLE
AND POST-PRISON SUPERVISION,
Respondent.

Petition for a Writ of Certiorari
to the United States Court of Appeals

for the Ninth Circuit

PETITION FOR WRIT OF CERTIORARI

C. Ren6e Manes
Assistant Federal Public Defender
101 SW Main Street, Suite 1700
Portland, Oregon 97204
(s03) 326-2123

Attorney for Petitioner

QUESTIONS PRESENTEI)
Was Mr. Pedersen denied the effective assistance of counsel guaranteed by the Sixth
Amendment, when his trial counsel failed

to

understand the applicable law on self-defense, and

failed to investigate the issues and call appropriate and available experts?

Did the Ninth Circuit err in crediting the post-conviction court with making a ruling on
Mr. Pedersen's claims of ineffective assistance of counsel, when the post-conviction court explicitly
made a ruling contrary to that stated by the Ninth Circuit?

TABLE OF CONTENTS
Page

Table of Authorities

Opinions Below

2

Juri sdictional Statement

2

Constitutional and Statutory Provisions

2

Statement Of The Case

J

A.

The Charge

J

B. The Trial

4

C

The Post-Conviction Court Ruling

5

D

The Federal Habeas Corpus Case

7

Reasons For Granting The

Writ

8

Argument

A.

8

Mr. Pedersen's Claims Are Governed by the Most Central Tenets of the Sixth
Amendment Right to the Effective Assistance of Counsel Recognized by this Court . . 8

B.

The Ninth Circuit Credited The Post-Conviction Court With A Ruling That
The Court Never Made . .

C.

Mr. Pedersen Had A Strong Case of Self-Defense Under Oregon Law and The
Facts of the Case

10

The Ninth Circuit's Opinion Fails To Accurately Apply Oregon Law

10

The Testimony of Captain Herbst Would Have Been Directly Relevant, Proving
That Mr. Pedersen's Perceptions And Beliefs Were Objectively Reasonable, As
Required By Oregon Law

9

...

11

The Jury Was Not Offered Any Expert On The Question Of Whether
Mr. Pedersen's Second Shot Might Have Been Involuntary And Caused By The
Injuries He Sustained .

t2

The Failings of Trial Counsel Were Based on Ignorance of the Law and
A Failure to Investigate, Not on any Tactical or Strategic Decision . . . .

13

......13

Conclusion

INDEX TO APPENDICES
Appendix

Page(s)

Unpublished memorandum opinion in Pedersen v. Oregon Board of Parole and
P o s t-P r i s on Sup ervi s ion, Case No. I 9-3 5 5 99 (gth Cir., Decemb er 24, 2020)
Opinion and Order in Pedersen v. Popffi Case No. 6:17-cv-00145-JR (D. Or.,

July5,2019)....

Findings and Recommendations in Pedersenv.
(D. Or., April 17,2019)

Popffi

Case

No. 6:17-cv-00145-JR

. l-4
5-9

t0-21

Oral ruling of the post-conviction court in Pedersen v. Coursey, Umatilla Circuit
Court Case No. CV120100 (March 13,2013)

22-27

Judgment of the post-conviction court in Pedersen v. Coursey, Umatilla Circuit
Court Case No. CV120100 (March 17,2014)

28-33

Order denying petition for rehearin g, Pedersen v. Oregon Board of Parole and
Post-Prison Supervision,CaseNo. 19-35599 (9th Cir., March 3,2021)

il

34

TABLE OF AUTHORITIES
Page

FEDERAL CASES
' 8,9,

Hintonv. Alabama, 571 U.S. 263 (2014)

13

8,9,12

Stricklondv. Washington,466 U.S. 668 (1984) . .

8,9

Williams v. Taylor,529 U.S. 362 (2000)

STATE CASES
State v.

Dahrens,l92 Or. App. 283, 84 P.3d ll22 (Or. App.2004)

4,10,

State v. Oliphant,347 Or.175,218 P.3d 1281 (Or. 2009)
State v. Strickland,303 Or. App. 240, 463 P.3d 537 (2020) . .

4, l0

.

ll

...11

State v. Strye,273 Or. App. 365, 356 P.3d 1165 (Or. App. 2015)

4

State v. Vanornum,354 Or.614,317 P.3d 889 (Or. 2013)

4

F'EDERAL STATUTES
28

u.s.c.A.

s 22s4(d)

(tee6)

2-3,9

111

No

IN THE
SUPREME COURT OF THE UNITED STATES

KORY CHRISTIAN PEDERSEN,
Petitioner,

v
OREGON BOARD OF PAROLE
AND POST-PRISON SUPERVISION,
Respondent.

On Petition for Writ of Certiorari to
the United States Court of Appeals

for the Ninth Circuit

The defendant-petitioner, Kory Christian Pedersen, respectfully requests that a writ of
certiorari issue to review the opinion of the United States Court of Appeals for the Ninth Circuit

enteredonDecember24,2020,Appendix(App.) 1-4,andthedenialofrehearingonMarch3,202l.
App. 34. The issue on appeal was the denial of the claim of ineffective assistance of counsel for

I

failing to understand, and adequately present, the defense ofself-defense against the use ofexcessive
force against a law enforcement officer.

Opinions Below
The United States District Court for the District of Oregon (district court) denied habeas

relief on July 5,2019, App. 5-9, adopting the Findings and Recommendations of the magistrate
court that were issued on April 77,2019. App. 10-21.
The

Ninth Circuit affirmed the denial of habeas corpus relief in an unpublished opinion on

December 24,2020. App. 1-4. The Ninth Circuit denied panel and en banc rehearing on March 3,

2021. App.34.
The district court and the Ninth Circuit granted deference to the oral and written rulings
the Circuit Court for the County of Umatilla (post-conviction court) issued on March

13

of

,2013 , App.

22-27, and March 17, 20l 4, App. 28-3 3, respectively.

Jurisdictional Statement
The denial of rehearing occurred on March 3,2021. App. 34. This Court has jurisdiction
under 28 U.S.C. $ 1254(1) (2012).

Constitutional and Statutory Provisions
The Sixth Amendment to the United States Constitution provides that "[i]n all criminal
prosecutions, the accused shall enjoy the right to . . . have the Assistance of Counsel for his defence."

U.S. Const. amend VI.
28 U.S.C.A. $ 2254(d) (1996) provides:

An application for a writ of habeas corpus on behalf of a person in custody
pursuant to the judgment of a State court shall not be granted with respect to any

2

claim that was adjudicated on the merits in State court proceedings unless the
adjudication of the claim

-

(1) resulted in a decision that was contrary to, or involved an uffeasonable
application of, clearly established Federal law, as determined by the Supreme
Court of the United States; or
(2) resulted in a decision that was based on an uffeasonable determination
the facts in light of the evidence presented in the State court proceeding.

of

Statement Of The Case

The following facts are taken from the state court record submitted in the district court
proceedings.

A.

The Charge

On June 22,2007, Mr. Pedersen was charged in Lincoln County with Attempt to Commit

Murder, Unlawful Use

of a Weapon, Coercion with a Weapon/Attempt to Commit a Class

CAJnclassified Felony, Resisting Arrest, Pointing a Firearm at Another, Menacing, and Possession

of Cocaine.l The charges arose from

a June

15,2007, incident, in which Mr. Pedersen had parked

his recently purchased recreational vehicle at the day-use parking area of Lost Creek State Park, near

Yaquina Bay Bridge along the Oregon coast. Mr. Pedersen's vehicle's lights were not fully
operational and he ended up parking ovemight while awaiting mechanical assistance. Overnight

parking in a day use area is a vehicular violation under Oregon law.

At

approximately 2;00 a.m.,

a deputy came across the vehicle and

engaged with

Mr. Pedersen. When Mr. Pedersen exited his vehicle the deputy pulled his taser and pointed it at
Mr. Pedersen. A video from the taser recorded the interaction, ending prior to the point where shots
were fired. The video shows Mr. Pedersen asking the deputy why he was going to shoot him; the
I

At trial, Mr. Pedersen did not dispute his possession of cocaine.
J

deputy and Mr. Pedersen arguing; the deputy tasing Mr. Pedersen; Mr. Pedersen running back into
his vehicle with the deputy following; the deputy tasing Mr. Pedersen again and then pepper spraying

him twice; the deputy kicking through

a

thin door that Mr. Pedersen was hiding behind. Fearing for

his life and perceiving that the deputy was getting ready to pull his gun, Mr. Pedersen fired his own
gun down and away from the deputy in an attempt to scare him. The deputy returned fire, hifiing

Mr. Pedersen in the hand. Mr. Pedersen's second shot, which he believed was fired involuntarily
after his hand was hit, injured the deputy.

B.

The Trial

Under Oregon law

if

an individual has an objectively reasonable belief that a law

enforcement officer is using, or is about to use, force that "exceeded the force reasonably necessary"
for the situation, then the individual may undertake an intentional or knowing act in an effort to stop
or prevent the use of such unlawful force. Once those elements are established, the state bears the

burden of disproving self-defense under the beyond-a-reasonable doubt standard. See Stote

v.

Oliphant,347 Or.175,194-95,218 P.3d 1281 (Or. 2009);Statev. Vanornum,354Or.614,617,3l7
P.3d889(Or.2013); Statev.Dqhrens,I92Or.App.283,286,84P.3dll22(Or.App.2004).Itis
not necessary that an individual either intend to cause, or actually cause, any injury to the other
person to act in self-defense, but only that they intend to prevent themselves from being harmed by
what they reasonably perceive to be another's unlawful use of force . State v. Strye,273 Or. App. 365,

370,371-72,356 P.3d 1165 (Or. App.2015).
Trial counsel failed to adequately understand or explain the elements of self-defense to the

jury, and instead presented

a

virtually incomprehensible argument on self-defense, which asserted

4

that Mr. Pedersen had to actually intend to hit or kill the officer when he fired the first shot in order

to qualifu for the defense of self-defense. Stating at the very end of his opening statement:
Again, there's two ways that we're going to look at this in terms of looking
from Mr. Pedersen's point of view. And that is, number one, did he ever intend to kill
at all, or was he merely trying to frighten the officer to get the officer off of him?

But number two, if you find that that's a bunch of malarkey,that he was, in
fact, aiming at the officer, then you have to decide - it's the second level of analysis
- was - did he have the right under these circumstances to defend himself in that
way?

And in closing argument:
Self-defense, by the way, applies to all the counts. Self-defense will apply to
attempted aggravated murder. It'll apply to unlawful use of a weapon. It'll apply to
coercion. It'll apply to resisting arrest.

Again, there's another defense I didn't know, and it applies to pointing the
firearm at another. So if you find that Kory Pedersen did not intend to commit these
offenses - no, I take that back. I misspoke. You don't have to find that Kory Pedersen
didn't intend. You don't have to find that Kory Pedersen acted in self-defense.

I really need to correct myself. If you don't find beyond a reasonable doubt
that that was his intent, you'll acquit him. If you don't find beyond a reasonable
doubt - if you don't find beyond a reasonable doubt - listen to me, it's double
negative - that he did not act in selfdefense - beyond a reasonable doubt, they have
to prove it doesn't apply - you must acquit him.
The

jury convicted Mr. Pedersen on all counts.

C.

The Post-Conviction Court Ruling.

In post-conviction Mr. Pedersen alleged that his trial counsel was ineffective in failing to
present and support the defense of self-defense. Mr. Pedersen presented the testimony of three
experts who were available at the time of trial and would have supported Mr. Pedersen's claims

self-defense

if

called to

of

testifr. Captain Kenneth Carl Herbst, a Captain with the Department of

Public Safety Standards and Training, who would have testified that the deputy's conduct was
5

unreasonable and an excessive use of force under the standards to which law enforcement officers
are trained in the State of Oregon, confirming that

Mr. Pedersen's perception that the deputy was

using excessive force was objectively reasonable, thereby giving Mr. Pedersen the right to defend
himself against any further use of force. Dr. William J. Brady, a licensed pathologist with decades

of experience, who examined the injuries to Mr. Pedersen's hand and who would have testified
regarding those injuries and how they would have caused an involuntary hand seizure. And Mr. Gary

Knowles,

a

forensic scientist with thirty-eight (38) years of experience, who examined the weapons

at issue and who

would have testified how an involuntary hand seizure could have caused the second

shot fired by Mr. Pedersen based on factors such as the trigger pull weight for the gun at issue. Both

Dr. Brady and Mr. Knowles would have supported Mr. Pedersen's contention that the second shot
was involuntary.
In response, trial counsel confirmed that he did not consult with any ofthese possible experts,

for reasons including that he had never called or attempted to call a self-defense expert, and he did
not believe that

a

medical expert could be of assistance, although he did not make any inquiries with

any such expert. More importantly, counsel stated that he did not believer he had the ability to
support a claim of self-defense because Mr. Pedersen insisted on stating that he did not intend to hit
the deputy with his first, intentional, shot.
The post-conviction court found that Dr. Brady and Mr. Knowles were impressive experts

who would have bolstered Mr. Pedersen's claims regarding the second shot being accidental. App.

25. The post-conviction court stated that the case was "self-defense right from the get-go"
agreed that this was not the way the case was

and

tried. App. 26. The court also found that Mr. Pedersen

was not credible in contending that he and his attorney discussed pursuing self-defense. App. 30.
6

However, the post-conviction court did not explain on what basis it was rejecting Mr. Pedersen's
claim that trial counsel was ineffective in failing to present self-defense and the available experts in
support of that defense, and as a result failed to rule on Mr. Pedersen's claim of ineffectiveness.

D.

The Federal Habeas Corpus Case

On January 27 ,2017

,Mr. Pedersen's pro

se habeas corpus

petition was filed with the district

court. Counsel filed an amended petition on April 12,2017. After briefing by the parties,
magistrate judge recommended a denial of

the

relief. App. 10-21. The district court adopted the

recommendation. App. 5-9.
The district court's reason for denying relief was deference to the post-conviction court's

ruling, contending that trial counsel made a reasoned tactical decision not to call Captain Herbst
because Mr. Pedersen was not familiar with the training procedures for the deputy, and the trial court

might exclude the evidence. App. 8. The court found the subsequent experts would not have helped

finding because the jury found that Mr. Pedersen intentionally fired the first shot. App.

9.

Ultimately the court deferred to the analysis and ruling of the post-conviction court. App. 8-9.
The district court denied a Certificate of Appealability, but one was granted by the Ninth

Circuit. On appeal, the Ninth Circuit denied Mr.

Pedersen relief concluding that, whether or not

counsel was ineffective, the effors could reasonably be deemed harmless because: (1) the defense
was weak for reasons including the fact that Mr. Pedersen did not wait for the deputy to first pull his

own gun, App. 3; (2) the testimony that Captain Herbst could provide was only minimally relevant
as

it did not go to Mr. Pedersen's own personal beliefs, App.3-4; and, (3) there was no need for any

"additional" experts on the question of whether Mr. Pedersen's second shot was voluntarily or
involuntary because trial counsel had called Vern Hoyer, a former police officer who had a stated
7

expertise in firearms trajectories. App.

4.

The Ninth Circuit concluded that the post-conviction

court could have reasonably rej ected Mr. Pedersen'

s

claims that a "more accurate presentation of the

self-defense theory would not have changed the result." App. 3.
Reasons For Granting The

Writ

This Court should grant the writ because the Ninth Circuit's opinion adopted

an

interpretation of the post-conviction court's ruling which was completely contrary to the rational

of

that holding. The post-conviction court did not conclude that the theory of self-defense was
presented, but just not as accurate as possible. The post-conviction court determined that the case
was not tried as a case of self-defense, and never considered Mr. Pedersen's claim that trial counsel

was ineffective in failing to do so.

Further, the Ninth Circuit's opinion failed to conform to this Court's most core rulings
regarding an attorney's obligations under the Sixth Amendment, including those set forth in

Stricklsnd v. l(ashington, 466 U.S. 668 (1984), Hinton v. Alabama, 571 U.S. 263 (2014) and
Williams v, Taylor,529 U.S. 362 (2000).

Argument
A.

ooAn

Mr.

Are Governed by the Most Central Tenets of the Sixth
Amendment Right to the Effective Assistance of Counsel Recognized by this
Court.
Pedersenos Claims

attorney's ignorance of a point of law that is fundamental to his case combined with his

failure to perform basic research on that point is a quintessential example of unreasonable
performance under Stricklandf.l" Hinton v. Alabama, 571 U.S. at 274 (2014) (further citations

omitted). A lawyer "has a duty to make reasonable investigations or to make

8

a reasonable

decision

that makes particular investigations unnecessary." Strickland,466 U.S. at 69T. While an attorney
may make atactical decision not to investigate, a decision which is based on ignorance of the law
is neither strategic nor tactical and is instead ineffective. Hinton,572 U.S. at274 (further citations

omitted).

In assessing prejudice from such deficient performance, this Court has repeatedly held that
the failure to introduce readily available evidence supporting a defense, including the testimony

of

anexpert, isprejudicialandrequires agrantofrelief. Williams,529U.S. at396 (2000); Hinton,5Tl
U.S. at273.
B.

The Ninth Circuit Credited The Post-Conviction Court With A Ruling That
The Court Never Made.

While 28 U.S.C. S 2254 requires deference to the ruling of a state court, the Ninth Circuit
credited the state court with

a

ruling that was never made, and ignored the ruling which was actually

made.
The Ninth Circuit held that the post-conviction court could have reasonably concluded that

Mr. Pedersen was not prejudiced by his trial counsel's failures in raising the theory of self-defense
because the instruction was given and "the state court could reasonably conclude that a more
accurate presentation

of the self defense theory would not have changed the result." App.

3.

However, the post-conviction court's ruling did not find that self-defense was raised in trial, but
instead that the "theory of the case was that his first shot was merely in warning and the second shot

was accidental"

-

which was the explanation offered by trial counsel. App.29'

In addressing Mr. Pedersen's claim that he wished to pursue self-defense, the post-conviction

court held that his testimony was not credible because it was contradicted by trial counsel's claims.

9

App. 30. While the post-conviction court stated atthe post-convictionhearing thatthe matter should
have been tried as a self-defense case, the court found that

it was not. App.26.

The post-conviction court did not make any findings on the sufficiency of the presentation

of

self-defense nor on potential prejudice, because the post-conviction failed to consider and

adjudicate Mr. Pedersen's claim that trial counsel was ineffective in failing to present such a defense
and supporting that defense with the testimony of the readily available expert witnesses.

C.

Mr. Pedersen Had A Strong
Facts of the Case.
The

Case of Self-Defense Under Oregon

Law and The

Ninth Circuit's Opinion Fails To Accurately Apply Oregon Law

The Ninth Circuit concluded that Mr. Pedersen's self-defense case was weak because
Mr. Pedersen did not wait to fire until after he had

seen the deputy draw his gun.

App. 3. However,

Oregon law does not require that an individual wait until after they have been assaulted, they may
defend themselves when the unlawful use of force is "imminent." Oliphant, 347 Or. at 194-95. An

individual has every right to act preemptively, specifically to "engage in a defensive act with the
knowledge or intent that it will thwart another's application of unlawful force." Dahrens, I92 Or.
App. at286.

At the time Mr. Pedersen used his own gun, he had already been tased twice, pepper sprayed
twice, and had the door he was hiding behind kicked through

-

all of which he perceived to be

unreasonable and excessive use of force in light of the fact that he had, at most, committed a minor

vehicular offense. Mr. Pedersen then perceived that the deputy was going to go for his gun.
Mr. Pedersen did not have to wait for the deputy to go further and shoot him if his belief that he was

10

being subjected to the use

of-

of-

and a further imminent use

unreasonable and excessive force was

objectively reasonable.

-

The reasonableness of Mr. Pedersen's belief
self-defense

-

and thus the strength of his claims

of

should have been critically supported by the testimony of an expert in the field.
The Testimony of Captain Herbst Would Have Been Directly Relevont, ProvingThat
Mr. Pedersen's Perceptions And Beliefs Were Objectively Reasonable, As Required

By Oregon Law.

The Ninth Circuit concluded that the expert testimony of Captain Kenneth Herbst would

have been minimally relevant because the issue for the

jury was Mr. Pedersen's

oo

oown

only

reasonable

belief in the necessity for such action, and not whether the force used or about to be used on him was
actually unlawful.' " App. 4, emphasis in original citing Oliphant,2l8 P.3d at1290.
Under Oregon law, the standard for self-defense against a law enforcement officer is not

purely subjective. It requires consideration of whether

ooa

reasonable person in [the defendant's]

position would have believed, that the use or imminent use of force against him exceeded the force
reasonablynecessaryto effectthe arrest[.]" Oliphant,347 Or. atl94. This "objective standard" asks

"how

a reasonable person

would have assessed the circumstances in which defendant found himself

atthetimethathebrandishedtheweapon." Statev. Strickland,303 Or. App.240,244,463P.3d537,
539 (2020). Captain Herbst's opinion would have been of assistance to the jury in determining

whether

- whatever Mr. Pedersen's subjective idiosyncracies -

a reasonable person would have

understood the deputy's use offorce as excessive.
Captain Herbst's testimony was particularly important given the admission by Mr. Pedersen

that he had used cocaine prior to his interaction with the officer, making it possible that the jury

would have discounted the reasonableness of his perception.
11

Jury Wos Not Offered Any Expert On The Question Of Whether Mr. Pedersen's
Second Shot Might Have Been Involuntary And Caused By The Injuries He
The

Sustained.

The Ninth Circuit concluded that trial counsel's failure to present "additional experts"
regarding whether the second shot was involuntary was not prejudicial because counsel "put forward

an expert witness who testified that

it was 'very possible' that

Pedersen fired the second shot

involuntarily[.]" App. 4.
The only witness presented by trial counsel on such issues was Vern Hoyer, but Mr. Hoyer's

only stated expertise was on firearms trajectories. While he had apersonal opinion that being hit in
the hand might cause someone to accidentally discharge a weapon, he was not qualified to offer, and

did not offer, any testimony regarding the injuries to Mr. Pedersen's hand that night, or the weapons
at issue in the incident.

In

contrast, Dr. Brady was available

to testifu specifically regarding the injuries to

Mr. Pedersen's hand that night, and how those injuries could have caused an involuntary reflexive
pull on a trigger. And Mr. Gary Knowles had specific qualifications on trigger pull and bullet weight,
could have testified that such a reflexive pull would likely have caused the second shot, based on his
research and analysis of the weapon at issue.

None of this evidence was

-

or could have been-presented in the testimony of Hoyer. Most

critically, trial counsel never made any decision to rely on the testimony of Hoyer for these issues.
Instead, trial counsel simply did not investigate whether a medical doctor

-

or any other witness

-

could provide a helpful opinion. There was no strategic decision made to forego these experts
because

trial counsel did not undertake the necessary investigation to make such a decision.

Strickland,466 U.S. at 688.

t2

The post-conviction court found that Mr. Knowles and Dr. Brady would have been of
assistance to the defense on the question

ofthe inadvertence ofthe second shot, but discounted the

o'red
herring." App.23.
importance of this shot, calling it a

Failings of Trial Counsel Were Based on lgnorance of the Law and A Failure
to Investigate, Not on any Tactical or Strategic Decision.
The

Trial counsel's failure to support the theory of self-defense was based on his belief that
Mr. Pedersen could not claim self-defense if he did not intend to hit the deputy with his first shot.
This is a misunderstanding of Oregon's law. Because trial counsel did not understand Oregon law
on the issue of self-defense, he failed to investigate the experts who were available who might
support that defense, and failed to adequately present the defense to the jury.

Trial counsel's failures constituted deficient performance, and deprived Mr. Pedersen of his
right to the effective assistance of counsel under the Sixth Amendment as defined by this Court's
core holdings on ineffective assistance

-

Strickland, Hinton, and Wrashington. The Ninth Circuit

denied Mr. Pedersen relief by misstating Oregon law and crediting the post-conviction court with

making rulings that never occurred while ignoring the ruling that was issued.

Conclusion
For the foregoing reasons, the Court should issue a writ of certiorari.
Dated this 1st day of June ,202I.

C. Ren6e Manes
Attorney for Petitioner

13

(1 ot u)

Case: 19-35599, 1212412020, lD: 1 1944706, DktEntry: 45-1 , Page 1 of 4

NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR TFIE NINTH CIRCUIT

No.

KORY CHRISTIAN PEDERSEN,
P

FILED
DEC 242020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

19-35599

D.C. No. 6: I 7-cv-00145-JR

etitioner-App ellant,

v

MEMORANDUM-

OREGON BOARD OF PAROLE AND
ST-PRISON SUPERVISION,

PO

Respondent-Appellee.

Appeal from the United States District Court
for the District of Oregon
Michael W. Mosman, District Judge, Presiding
Argued and Submitted December 10,2020
Seattle, Washington

Before: BERZON, MILLER, and BRESS, Circuit

Judges.

Kory Pedersen appeals the district court's denial of his 28 U.S.C. 5 2254
habeas

petition. We review de novo the district court's denial of $ 2254 relief.

Carter v. Davis,946F.3d 489, 501 (9th Cir. 2019). We have jurisdiction under 28
U.S.C.

S

2253, and we affirm.

Pedersen resisted arrest and then twice shot at the arresting police officer.

*

An

This disposition is not appropriate for publication and is not precedent
provided
by Ninth Circuit Rule 36-3.
except as

Appendix

1

Case: 19-35599, 1212412020, lD:

Oregon

(:z
1

1944706, DktEntry: 45-1 , Page 2 of 4

jury found Pedersen guilty of

attempted aggravated murder and other

offenses. Pedersen now contends that his trial lawyerprovided ineffective assistance

of counsel by not adequately investigating and presenting Pedersen's claim that

he

shot at the officer in self-defense and by failing to put on additional expert witnesses

to support Pedersen's theory that his second shot was involuntary.
Under the Antiterrorism and Effective Death Penalty Act of 1996 (AEDPA),
we may only grant habeas relief if the state court's decision (1) "was contrary to, or

involved an unreasonable application of clearly established Federal law,

as

determined by the Supreme Court of the United States"; or (2)o.was based on an
unreasonable determination ofthe facts in light ofthe evidence presented in the State

court proceeding." 28 U.S.C.

5 2254(d). To establish ineffective assistance,

Pedersen must show that (1) his counsel performed deficiently, and (2) counsel's

deficient performance prejudiced him. Stricklandv. Washington,466 U.S. 668, 687

(1934). Under AEDPA, we may only grant relief if the constitutional violation is
"beyond any possibility for fairminded disagreement." Harrington v. Richter, 562

u.s. 86, 103 (2011).'
Assuming without deciding that counsel acted deficiently, the state court
could reasonably conclude that counsel's performance was not prejudicial-that
I The State has

forfeited its argument, made for the first time on appeal, that Pedersen
faited to exhaust his claims by not raising them in state post-conviction proceedings.
See Franklin v. Johnson,29} F .3d 1223, 1233 (9th Ctr.2002).
2

Appendix 2

ol u)

(3 or u)

Case: 19-35599, 1212412020, lD: 1 1944706, DktEntry: 45-1, Page 3 of 4

there is no "reasonable probability that, but for counsel's unprofessional errors, the

result of the proceeding would have been different." Strickland,466 U.S. at 694.
Pedersen's counsel did make a self-defense argument to the jury, and the jury was

given a self-defense instruction. The jury also heard Pedersen's testimony about
why he fired the first shot, as well as a video that documented most ofthe encounter.
In finding Pedersen guilty, the jury determined that he had the necessary intent

to kill the officer without proper justification for at least one of the shots. Under
these circumstances, the state court could reasonably conclude that a more accurate

presentation of the self-defense theory would not have changed the result.

Id. That

is especially the case considering the apparent weakness of Pedersen's self-defense
theory, including the fact that Pedersen never saw the officer draw his handgun or
begin to do so before Pedersen fired the first shot. The jury either decided that
Pedersen did not intend

to hit the officer with the first shot, in which

inaccurate self-defense theory would not have mattered,
Pedersen did have the intent to
case

or

case the

it concluded

that

kill the officer when he fired the first shot, in which

it would not have mattered whether the jury was told that he need not have that

intent to succeed on self-defense. Either way, the attorney's inaccuracy as to the
Oregon law of self-defense did not matter to the jury verdict.

We likewise reject Pedersen's argument that the state court decision was an
unreasonable application of Strickland because counsel acted deficiently by failing

3

Appendix

3

Case: 19-35599, 1212412020, lD:

1

1944706, DktEntry: 45-1 , Page 4 of 4

to put on expert testimony from Captain Kenneth Herbst concerning whether the
arresting offrcer's actions violated Oregon's Department of Public Safety Standards
and Training guidelines for the use of force. Pedersen's "right to use force in selfdefense depends on [his] own reasonable belief in the necessity for such action, and

not on whether the force used or about to be used on him actually was unlawful."
Statev. Oliphant,2l8 P.3d 128I,1290 (Or. 2009). Given the marginal relevance of

Herbst's proposed testimony, reasonable jurists could determine that counsel's
alleged effor was not prejudicial. See Harrington,562 U.S. at 103.
The state court could likewise reasonably conclude that any error in counsel's

failure to put on additional experts for Pedersen's second fired shot was not
prejudicial. Counsel already put forward an expert witness who testified that it was
"very possible" that Pedersen fired the second shot involuntarily because the officer
had shot Pedersen in the hand. The jury thus had a basis to vindicate this theory,
had it credited

it.

Pedersen has not shown how additional experts on this topic would

have changed the result. That is particularly so considering that this defense at most

went to the second shot and did not absolve Pedersen of responsibility for the first
shot.

AFFIRMED.

4

Appendix 4

(4 ot u)

Case 6:17-cv-001-45-JR Document

57

Filed 07/05/19 Page 1 of 5

IN THE UNT|}'D S'I'A]ES DIS'IRIC'f COURT
FOR THE DISTRICT OF OREGON

EUGENE DIVISION

KORY CHRISTIAN PEDERSEN,
No. 6:17-cv-00145-JR

Petitioner,

OPINION AND ORDER

CHRISTINE POPOFF, Superintendent,

Oregon State Correctional tnstitution,
Defendant.

MOSMAN, J.,
On April 77,2019, Magistrate Judge Jolie Russo issued her Findings and
Recommendation (F&R) 1531, recommending that I deny Kory Pedersenos Amended Petition for

Writ of Habeas Corpus [12]. Mr. Pedersen filed Objections to the F&R [55] and Respondent
Christine Popofffiled a Response to Mr. Pedersen's Objections [56]. For tl:e reasons below,

i

adopt Judge Russo's F&R in fuil.

DISCUSSION
The magistrate judge makes only recommendations to the court, to which any party may

file written objections. 'l'he court is not bound by the recommendations of the magistrate judge
but retains responsibility for making the final determination. The court is generally required to
make a de novo determination regarding those portions of the report or specified findings or
recommendation as to which an objection is made. 28 U.S.C. $ 636(bXlXC). However, the
1

-

OPINION AND ORDER

Appendix

5

Case 6:17-cv-00145-JR Document

57

Filed 07/05/1-9 Page 2 of 5

court is not required to review, de novo or under any other standard, the factual or legal
conclusions of the magistrate judge as to those portions of the F&R to which no objections are
addressed. See Thomas v. Arn,474 U.S. I4A, 149 ( 1985); United States v. Reyna-Tapia,328

F.3d 1 114,ll21(9th Cir. 2003). While the level o1'serutiny under which l am required to
review the F&R depends on whether or not objections have been filed, in either case, I am free to
accept, reject, or modify any part of the F&R. 28 U.S'C. $ 636(bX1XC).
Judge Russo found that Mr. Pedersen has not shown that he is entitled to habeas corpus

relief on his claim of ineffective assistance of

tial

counsel. F&R [53] at

1

l.

Mr. Pedersen, who

was convicted of Attempted Aggravated Murder after firing twice at a Lincoln County Deputy

Sherifi argued that his trial counsel was ine{fective in two ways. First, Mr. Pedersen claimed
that trial counsel was ineffective in failing to present a theory that the first shot he fired at the

Deputy qualified as an act of seif-defense. Trial counsel had argued that the lirst shot was
warning shot, aimed away from the Deputy. If the first shot was intended only
Pederson would not have been guilty of attempted murder. Although the

as a

a

waming, Mr.

jury was instructed on

self-defense and trial counsel argued that the jury should acquit based on self-def'ense, Mr.
Pederson argues that his counsel was ineffective in fhiling to argue that a waming shot also

supporled a theory ofself-defense, Objs. 155l at 10.
Second, M;. Pedersen claimed that his trial counsel was ineffective in failing to obtain

aclditional experts to bolster his claim that the second shot "fired at the Deputy was unintentional'

After Mr. Pederson fired the first shot, the Deputy returned fire, hitting Mr. Pederson in his
shooting hand. Mr. Peclerson claims that his injury caused an involuntary trigger pull, which
resulted in the second bullet fired at the Deputy. A private investigator testified at trial that

2 _ OPINION AND ORDER

Appendix 6

it

Case 6:17-cv-00145-JR Document

57

Filed 07/05/L9 Page 3 of 5

was "vel'y possible" that the Deputy's bullet could have caused Mr. Pedersen to unintenti<lnally

fire his gun. Tr. 945-52.
The state postconviction review (PCR) court found that additional witnesses would have
been useful in establishing the involuntariness of the seeond shot, but that the

jury was not

required to believe that the first shot was only meant to be a waming. And lestirnony by

additional experts "couldn't help fPetitioner] a bit with the question of the first shot, which was
clearly intentionally fired." Resp't Answer [26] Ex. 2 at 11-12. The PCR court therefore denied
Mr'. Pederson's claim that his counsel was constitutionally ineffective, Applying the standard

of

review for a state prisclner asserting an ineffective assistance of counsel claim, Judge Russo
found that the PCR courl's decision was not unreasonable and was supported by the record.

F&R t53l at 10; see also id. at 9 ("When $ 2254(d) applies, the question is not whether counsel's
actions were reasonable. The question is whether there is any reasonable argument thal counsel
satisfied Sftickland's deferential standard.") (quoting Llarringlon v. Richler,562 U.S. 86, 105

(2011).
Mr. Pedersen quotes Stale v. Stye for ihe proposition that

a defendant need not

cause, or actually cause, any injury to another person to pursue self-defense,

"intend to

it is only lleeessary

that the defendant act intentionally in a malmer designed to prevent themselves fr'om being

hanned by another's unlawful use of force." Objs. [55] at

l4 (citing

356 P.3d 1165, 1168 (Or.

App. 2015)). While this statement of Oregon law highlights the tension between trial counsel's
testimony thal he pursued a theory that the first shot was a warning rather than self-defense,

it

does not demonstrate that habeas coryus relief is appropriate. As Judge Russo stated in her F&R,
even

if Mr. Pederson had established that trial cotnsel's conduct feli below

an objective standard

of reasonableness, he must also have demonstrated that he was prejudiced by that deficiency.

3 _ OPINION

AND ORDER

Appendix 7

Case 6:17-cv-00145-JR Document

57

Filed 07/05/l-9 Page 4 of 5

F&R [53] at 10. In other words, he needed to demonstrate that "there is a reasonable probability
that, but tbr counsel's unprof'essional errors, the result of the proceeding would have been

different." F&R l53l at 8 (quoting Stricklandv. Wctshington"466 U.S. 668, 694 (1984)). I

agree

with Judge Russo that the I]CR court reasonably found that the result of the proceeding would
not have been diffbrent had counsel delivered a n'lore convincing argumcnt on a theory of selfdcfcnsc.
Thc PCR court's most fundamcntal holding was that the jury did not believe Mr.
Pederscn's testimony that his first shot was fired as a waming. Thc

jury instead l'ound that Mr.

Pederscn shot at thc Deputy, which would be justifiable as self defense only if, (1) the Deputy
made an anest "with excessive fbrce," and (2) Mr. Pedersen "reasonably bclicvefd] that the

arresting offrcer was about to use deadly force against

him." Trial Tr.

127

I Ex. 3 at I I 56.

Although trial counsel did not argue that Mr. Pedcrsen was justified in sliooting at the Deputy,
the decision not to make this argunrent was based on a teasoned analysis of the facts of the case.

In a deposition takcn as pafi oithe slatc postconviction review proceedings, trial counsel stated
that he believed Mr. Pedersen would have been justified in firing at the deputy had Mr. Pederscn

known that the Deputy was engagcd in a lclonious assault by acting in violation of his police

training. Answer 126-ll Ex, I 16 al27. Trial counsel also statsd, however, that Mr. Pederscn
'ohad no idea what

police training procedures were," and thcrcfbre Mr. Pcdcrscn did not

reasonably bclieve that thc Deputy's use of force was lblonious. Icl, Trial counsel explained that
he considered presenting evidence that the Dcputy did nr:t

fbllow training procedure in his

encountcr with Mr. Pedcrsen but decided against it because he anticipated that

(l)

the prosecutor

would objcct, and (2) tlie trial court would have rulcd that such testimony was irrelevant to Mr.
Psderscn's statc of mind. ld. at 29. This rationalc bclics Mr. Pederscn's coulention that his trial

4

*

OPINION AND ORDER

Appendix

8

Case 6:17-cv-001-45-JR Document

57

Filed 07/05/1-9 Page 5 of 5

counsel failed to perceive that there was a viable argument for self-defense in this case. Because
the PCR court made a reasonable determination that trial counsel did not violate the standard set
fcrrth in Stricklnndwilh respect to presenting a theory of self-defense,I agree with Judge Russo's

finding that Mr, Pedersen is not entitled to habeas cotpus relief on this claim.
The PCR court also addressed Mr. Pedersen's second basis for claiming ineffective
assistance of trial counsel: that trial counsel was ineffective in not presenting additional expefi

testimony on whether the second shot was an "accidental discharge" resulting from Mr.
Pedersen's involuntary reaction to being shot in the hand. The PCR court noted that additional
experts could have helped develop that theory but that there was no reasonable probability that

additional experts would have changed the result of the proceeding because Mr. Pedersen
intentionally fired the hrst shot. I agree with Judge Russo thai the PCR coutt reasonably
determined that trial counsel was not ineffective in failing to bolster the "accidental discharge"
theory with additional experts, Mr. Pedersen is therefore not entitled to habeas corpus relief on
this claim.

CONCLUSION
For the reasons described above, i adopt the F&R [53] as my own opinion, The
Amended Petition for Writ of Habeas Corpus
a substantial showing

is DENIED. Because Petitioner has not made

of the denial of a constiiutional right, Petitioner's request for a certificate

of appealability is DENIED,

lr

[2]

,See

28 U.S.C. $ 2253{c){2)

rs so ORDERR

DATED

this

)

day of July, 2019,

w

Chief United

5

-

OPINION AND ORDER

Appendix 9

Judge

Case 6:l-7-cv-00145-JR Document

TN THE

53

Filed O4lL7lL9 Page 1 of

1-2

UNITED STATES DISTRICT COURT

FOR THE DISTRICT OF OREGON

KORY CHRISTIAN PEDERSEN,

Civil No.

Petitioner,

6: I 7-cv-001 45-JR

FINDINGS AND RECOMMENDATI ON

v
CHRISTINE POPOFF, Superintendent,
Oregon State Conectional Institution,
Respondent.

RUSSO, Magistrate Judge.
Petitioner, an inmate at the Oregon State Correctional Institution, brings this habeas col'pus

action pursuant to 28 U.S.C. S 2254. For the reasons that follow, the Court should DENY the
Petition for Writ of Habeas Corpus.

BACKGROUND
On June 22,2007, a Lincoln County grand

Aggravated Murder, Unlawful Use

1

jury indicted petitioner on charges of Attempted

of a Weapon, Coercion With a Firearm, Resisting Arrest,

. FINDINGS AND RECOMMENDATION

Appendix 10

Case 6:l-7-cv-00145-JR Document

Pointing

a Firearm at

53

Filed

O4lL7lL9

Page 2 oI12

Another, Menacing, and Unlawful Use of Cocaine. The charges arose from

events that transpired during an early moming confrontation with Lincoln County Deputy Sheriff

Miller.l
On June 16,2A07, at about 2:00 a.m., Deputy Miller approached petitioner's motor home

which was illegally parked in a "day-use only" area at a state park. Pedersen,242 Or. App. at307.
Deputy Miller knocked on the door of the motor home for several minutes before petitioner moved

to the driver's seat. Id.

rt 308. Petitioner was unresponsive when

Deputy Miller requested his

identification and asked him to step outside the vehicle; Miller described petitioner

as

fidgeting with

lris sweatshirt, pacing frenetically inside the cabin of the motor home, and visibly angry. Id.
After Miller repeated his commands multiple times, petitioner eventually exited the motor
honre, but remained agitated and did not obey

Miller's commands. Id. When petitioner refused to

take his hand out of his pocket. Deputy Miller fired his taser at petitioner in an unsuccessful attempt

to subdue him.

Id.

Id.

Petitioner retreated inside the motor home, and Deputy Mi1ler followed him.

Once inside, Deputy

Miller again fired his taser at petitioner and twice sprayed petitioner with

pepper spray, to no apparent effect.

Id.

Petitioner repeatedly yelled at Miller to 'oget out." and

Miller informed petitioner he was under arrest.

1d.

Petitioner backed into the corner of his bedroom and rummaged around near his bed, then
suddenly came up holding a .45 caliber weapon.

Id.

Petitioner fired two shots at Miller, who felt

lThe factual background of the encounter is succinctly set forth in the Oregon Court of
Appeals'writtenopinionfrompetitioner'sdirectappeal. Statev.Pedersen,242Or.App.305,rev.
denied,351 Or.254.
2 - FINDINGS AND RECOMMENDATION

Appendix

11

Case 6:17-cv-00145-JR Document

one of tlre bullets pass his hip.

53

Filed

O4lL7lI9

Id. Miller returned fire, hitting

petitioner in the hand.

police arrived shortly thereafter, and petitioner was taken into custody.
The case rvas tried to

a

Page 3 of 12

Id. Backup

.Id.

jury. At trial" petitioner's theory of the case was

that he "fired the

gun in order to frighten the officer and get him to leave the motor home." Resp. Exh.

1

16, p.

7. As

far as the second shot that petitioner fired, he presented a theory to the jury drat it was inadvertent;
according to petitioner, Deputy Miller shot petitioner in the hand, which caused petitioner's gun to
discharge another bullet. Resp. Exh. 116, pp. 8-10. To that end, trial counsel called as a witness

Vern Hoyer, counsel's private investigator, who had significant experience

in accident

reconstruction, ballistics, and bullet trajectory issues. Tr. 892-99.2 Hoyer testified that. in his
opinion, it was "very possible" that one of Deputy Miller's shots could have hit petitioner's hand
and caused petitioner's gun to fire a second bullet. T.. pp. 949-52. Petitioner testified in his own
defense, and admitted firing the first bullet in Deputy Miller's direction because he wanted to "scare

him out of my motor home before he draws on me." Tr.764. Petitioner denied that he was trying
to hit Deputy Miller, and said he was "trying to scare the deputy" because he was afraid Miller was

going to

kill him. Tr.767-68.

The

jury found petitioner guilty of all charges. The trial judge sentenced petitioner to 120

months of imprisonment on the attempted murder conviction. Tr.1194-95. The sentences on the
remaining counts were either ordered to run concurrently with the attempted murder conviction, or
the court imposed probation but "suspended imposition" of the probationary sentence, so the total

tenn of imprisonment imposed was 120 months. Tr. I194-98.

2For ease of reference, the citations to the transcript refer to the numbers in the lower righthand corner of the page being cited. See Docket Entry No. 27.
3

. FINDINGS AND RECOMMENDATION

Appendix 12

Case 6:l-7-cv-00145-JR Document

53

Filed O4lL7lL9 Page 4 ot L2

Petitioner filed a direct appeal asserting assignments of error challenging the sufficiency

of

the evidence on the coercion conviction, the trial court's jury instructions on the requisite mental
state, and the non-unanirnity of the jury verdict. In a written opinion, the Oregon Court of Appeals
agreed the evidence was legally insufficient for petitioner to be convicted of coercion, but affirmed
the trial court's judgment in all other respects. State v. Pedersen,242 Or. App. 305, 255 P.3d 556

(2011). The Court of Appeals reversed the coercion conviction and remanded for entry of

an

attempted coercion conviction and for re-sentencing. The Oregon Supreme Courl denied review.
State v. Pedersen,35l Or. 254,264 P.3d 1285 (2011).

Petitioner then sought state post-conviction relief

("PCR"). Petitioner filed a Second

Amended PCR Petition through counsel alleging, inter alia, that trial counsel provided ineffective
assistance

of counsel by failing to "adequately develop and

present the defense theory that

petitioner's firearm accidentally discharged after [the firearm] and petitioner's hand were struck by
a

bullet fired by Deputy Miller at petitioner." Resp. Exh. 1 12, p. 5. Petitioner further alleged that

trial counsel "failed to introduce any expert testimony to demonstrate that the impact of Deputy
Miller's hollow point .45 caliber bullet on petitioner's firearm and hand could
discharge of petitioner's firearm." Resp. Ex. 112,

p.6.

cause an accidental

Petitioner submitted affidavits from two

additional expefts supporting his theory of"accidental discharge"

as

to the second shot. Resp. Exh.

119,120.
The PCR trial court conducted an evidentiary hearing. Resp. Exh. 122. Atthe conclusion
of the hearing. the PCR trialjudge made oral findings denying all relief. Resp. Exh. 122,pp.27-31.

Thejudge found the issue regarding petitioner's second shot being an "accidental discharge" to be
"a bit of a red herring." Resp. Exh. 722, p.27

.

The judge acknowledged that it night have been

4 - FINDINGS AND RECOMMENDATION

Appendix

13

Case 6:l-7-cv-00145-JR Document

53 FiledO4lt7ll9

Page 5 of 12

"useful" for the defense to further pursue that theory to "help take the heat offthe first shot," but
that, nonetheless. the jury was not required to believe that "firing this first shot in close quafters"
was just a "warning

shot." Resp. Exh. I 22, p. 28. The PCR trial judge noted he rvas likewise not

required to, and in fact did not, believe thattheory. Id.
The PCR judge highlighted Deputy Miller's testimony, noting that Miller's testimony about
tlre bullet going so close to his hip that he could feel the pressure was

"chilling."

Resp. Exh. 122,

pp.28-29. According to the PCR trial judge, under these circumstances regardless of what any
additional expert witness might have testified to, any expert "could not have helped [petitioner]

a

bit with the question of the first shot, which was clearly intentionally fired." Resp. Exh. 122, pp.
29-30. Instead, the PCR judge concluded, "[s]o the idea that this
so close to the

that intent

-

is

just some rvarning shot that goes

officer that he can feel this pressure going by, I believe

the

jurors were entitled to find

that was an intentional act and was the basis for the Atternpted Murder conviction."

Resp.Exh. 122.p.29. Followingtheevidentiaryhearing,thePCRtrialjudgememorializedhisoral
findings in a General Judgment denying PCR relief. Resp. Exh. 123.
Petitioner appealed, asserting his claim of ineffective assistance of counsel based on trial
counsel's alleged failure to "adequately develop and present the defense theory that petitioner's
firearm accidentally discharged after it and petitioner's hand were struck by

Miller

at

a

bullet fired by Deputy

petitioner." Resp. Exh.124, p. 2. The Oregon Court of Appeals affirmed without opinion,

and the Oregon Supreme Court denied review. Pedersen v. Amsberry,278 Or. App. 171, rev.

denied,360 Or. 400 (2016).
Petitioner filed a Petition for Writ of Habeas Corpus in this Court. The Court appointed
counsel, who file an Amended Petition for Writ of Habeas Corpus on petitioner's behalf. The
5 - FINDINGS

AND RECOMMENDATION

Appendix 14

Case 6:17-cv-001-45-JR Document

53

Filed

O4lI7lL9

Page 6 of 12

Amended Petition alleges six claims for relief, with several sub-claims. In his counseled Brief in
Support of the Amended Petition, petitioner argues that he is entitled to habeas corpus relief because

trial counsel was ineffective in failing to recognize and present evidence to support

a

defense of self-

defense.3 Petitioner argues the position of his trial counsel, the state, and the PCR court represent
a profound misunderstanding of Oregon law on the availability of the defense of self-defense in

petitioner's sifuation. Respondent counters that the state PCR coult's decision denying relief on
petitioner's ineffective assistance ofcounsel claim is entitled to deference, and that petitioner did
not meet his burden of proof on the remaining claims not addressed in his Brief in Support.

LEGAL STANDARDS

3Although petitioner does not identify the exact claim for relief addressed in the Brief in
Support, it appears petitioner is advancing argument on sub-claims A and D of the Third Claim,
which allege as follows:

A.

Counsel failed to adequately investigate and prepare this matter for trial,
including consulting with necessary and appropriate expefts in supporl of
[petitioner's] claims of self-defense. Such necessary and appropriate experts
would have included experts on: appropriate police procedures and tactics
and use offorce, including appropriate deployrnent oftasers; self-defense;
physiological and mental responses to being tased: and, physiological and
mental responses to being shot in the hand.
*{<,F

D

Counsel failed to call and present critical evidence in support of[petitioner's]
defense of self-defense, including necessary fact witnesses, witnesses

regarding [petitioner's] background, and expeft witnesses on issues
including: appropriate police procedures and tactics and use of force,

including taser deployment; self-defense; physiological and mental responses
to being tased; and, physiological and mental responses to being shot in the
hand.
6 - FINDINGS AND RECOMMENDATION

Appendix

15

53

Case 6:17-cv-00145-JR Document

Ftled

O4lI7lL9 Page 7 of L2

An application for writ of habeas colpus shall not be granted unless adjudication of the claim

in

state court resulted

application

of

in a decision that was:

(l)

"contrary to. or involved an unreasonable

clearly established Federul law, as determined by the Supreme Couft of the United

States," or (2) "based on an unreasonable determination of the facts

in light of the evidence

presented in the State Court proceeding," 28 U.S.C. $ 2254(d). A state court's findings of fact are

presumed correct and

a habeas petitioner bears the burden of rebutting the presumption of

correctness by clear and convincing evidence. 28 U.S.C. $ 2254(e)(l).

A state couft decision is "contrary to . . . clearly established precedent ifthe

state couft

applies a rule that contradicts the governing law set forth in [the Supreme Cout't's] cases" or

state courl confronts a set of facts that are materially distinguishable from a decision

"ifthe

of

[the

Supreme] Court and nevertheless arrives at a result different from [that] precedent. Williams v.
Tavlor, 529 U.S. 362,405-06 (2000). Under the "unreasonable application" clause, a federal habeas
court may grant relief only

"ifthe

state court identif ies the correct legal principle from [the Supreme

Court's] decisions, but unreasonably applies that principle to the facts of the prisoner's case."

!!.

at 413. The "unreasonable application" clause requires the state couft decision to be more than
incorrect or erroneous. Id. at 410. The state court's application of clearly established law must be

objectively unreasonabl e. ld. at 409.
"Determining whether a state court's decision resulted from

an unreasonable legal or factual

conclusion does not require that there be an opinion from the state court explaining the state court's

reasoning." Harrington v. Richter, 562 U.S. 86, 98 (2011). Where a state court's decision is not
accompanied by an explanation, "the habeas petitioner's burden still must be met by showing there

was no reasonable basis for the state couft to deny
7 - FINDINGS

relief." Id. Where, however,

AND RECOMMENDATION

Appendix

16

the highest state

Case 6:L7-cv-00145-JR Document

53

Filed

O4lI7lI9

Page B of 12

court decision on the merits is not accompanied by reasons for its decision but a lower state court's
decision is so accompanied, a federal habeas court should "look through" the unexplained decision

to the last related state-couft decision that provides a relevant rationale, and presume
unexplained decision adopted the same reasoning. Wilson v. Sellers, 138 S. Ct. 1 188,

ll92 (2018).

The Suprerne Court has established a two-part test to determine whether a petitioner
received ineffective assistance

the

has

of counsel. First. the petitioner must show that his lawyer's

performance fell below an objective standard ofreasonableness. Strickland v. Washington, 466 U.S.

668,686-87 (1984). Duetothedifficultiesinevaluatingcounsel'sperformance,coufismustindulge

a strong presumption that the conduct falls within the "wide range of reasonable professional
assistance." Id. at 689. Stated otherwise, "Strickland's first prong sets a high bar. . . . It is only
when the lawyer's errors were 'so serious that counsel was not functioning as the 'counsel'
guaranteed . . . by the Sixth Amendment' that Strickland's first prong is satisfied." Buck v. Davis,
137 S. Ct. 759,776 (2017).
Second, the petitioner must show that his lawyer's perfotmance prejudiced the defense. The

approptiate test for prejudice is whether the petitioner can show "that there is a reasonable
probability that, but for counsel's unprofessional errors, the result of the proceeding would have
been

different." Strickland, 466 U.S. at694. A reasonable probability is one which is sufficient to

undermine confidence in the outcome of the

trial. Id. at 696.

Under the Anti-Teruorism and Effective Death Penalty Act of 1996's deferential standard

ofrevierv, the key question in analyzing an ineffective assistance ofcounsel claim brought by a state
prisoner is whether the state coult's application of Strickland was unreasonable. Harrinston, 562

U.S. at 102. "This is different from asking whether defense counsel's performance fell below
8 - FINDINGS

AND RECOMMENDATION

Appendix 17

Case 6:l-7-cv-00145-JR Document

Strickland's standard . . .

.

53

Filed

O4lL7lI9 Page 9 of 12

A state court must be granted a defetence and latitude that are not in

operation when the case involves review under the Strickland standard itself." Id. "When

S

2254(d)

applies, the question is not whether counsel's actions were reasonable. The question is whether
there is any reasonable argument that counsel satisfied Strickland's deferential standard." Id. at I 05.
Thus, "[w]hen the claim at issue is one for ineffective assistance of counsel . . . AEDPA review is

'doubly deferential,'because counsel is strongly presumed to have rendered adequate assistance and
made all significant decisions in the exercise of reasonable professional judgment." Woods v.

4q,

136 S.

Ct. 1149, 1151 (2016) (citations and internal quotations omitted). "In

such

circumstances, federal courts are to afford both the state court and the defense attorney the benefit

of the doubt." Id. (citation and internal quotation omitted).

DISCUSSION
As noted, petitioner alleges trial counsel was ineffective in failing to recognize and present
evidence to support petitioner's argument of self-defense. In particular, petitioner asserts that his

initial shot was intended to keep Deputy Miller from escalating his alleged unlawful use of force.
Petitioner's intent in firing was only to scare the deputy and not actually hit him, and this falls under

self-defense. Petitioner contends that trial counsel, the state, and the PCR trial court
misapprehended Oregon law on this issue, and mistakenly assumed petitioner's conduct could not

qualify as self-defense under Oregon law. Petitioner further argues that the second shot was
unintentional, and that there was available testimony from both

a

medical practitioner and

a

firearms

expert who could have substantiated petitioner's testimony. but that trial counsel never consulted

any ofthese expefts.

9 - FINDINGS

AND RECOMMENDATION

Appendix

18

Case 6:17-cv-001-45-JR Document

53

Filed

O4lt7lL9 Page L0 of 1-2

As the PCR trial couft found, trial counsel could certainly have hired additional expefts to

bolster petitioner's theoty that the second shot he fired was due to "accidental discharge."
Petitioner did not, however, establish that there was a reasonable probability that, had the expert
testimony been presented, the result of the proceeding would have been different.
The problem with the proposed expert testimony is that it would not "deflect the fact that
petitioner fired a first shot directly toward the deputy" before petitioner was hit in the hand. Resp.

Exh. 123, p.

2.

The PCR courl explained that any additional expefis on this issue would not have

aided petitioner's case, since they could not offer anything about the first shot. Although petitioner

testified that he fired the first shot merely as a warning, members of the jury (and indeed, the PCR
trial judge) were entitled to disbelieve petitioner. As such, the jury was entitled to treat the first shot
as the basis for petitioner's attempted murder conviction. The PCR court's decision was not

objectively unreasonable. and was suppotled by the record before the court.
Moreover, to the extent petitioner argues that defense counsel should have done more to
develop the theory ofself-defense, petitioner still has not established prejudice. In addressing the
issue of the first shot which petitioner intentionally fired, the PCR court said:

Depending on the then [sic] rvhat theory you have of why il was fired. it would have
been betterto take the position, I think, that it was self-defense right fi'om the get-go.
But I don't think that was the way in which this thing was prosecuted or was
defended.

Anyway, I don't find error in this case.
Resp. Exh. 122,
the
a

p.30. Again, additional expefts would not

have aided petitioner's case, because

jury was entitled to disbelieve petitioner when he testified that he fired the first shot merely

as

warning. Resp Exh. 123, p.3. The PCR court likewise did not find petitioner credible when he

1O

- FINDINGS AND RECOMMENDATION

Appendix 19

Case 6:17-cv-001-45-JR Document

53

Flled O4l17lL9 Page LL of

t2

testified as much in the PCR proceeding. There is no basis for this Court to disregard either the

jury'sorthePCRtrialcourt'scredibilitydetermination. SeeMarshallv.Lonberger,459U.S.422,
434 (1983) (Section2254(d) "gives federal habeas courts no license to redetermine credibility

witnesses whose demeanor has been observed by the state

of

trial court, but not by them");

Sophanthavong, 378 F.3d at867-68 ("because the state court conducted an evidentiary hearing in

rvhich [the petitioner] testified, we are required to defer to the state court's credibility findings").
Accordingly, petitioner is not entitled to habeas corpus relief on his claim of ineffective
assistance of trial counsel.

CLAIMS NOT ADDRESSED IN PETITIONER'S BRIEF
As noted. petitioner does not address the remaining grounds for relief alleged in his Petition

for Writ of Habeas Corpus. As such, petitioner has not sustained his burden to demonstrate why he
is entitled to relief on these claims. See Lampert v. Blodgett, 393 F.3d 943, 970 n.

l6 (9th Cir.

2004). Nevertheless, the Courl has reviewed petitioner's remaining claims and is satisfied that
petitioner is not entitled to habeas corpus relief.

1I - FINDINGS AND RECOMMENDATION

Appendix 20

Case 6:l-7-cv-00145-JR Document

53

Filed O4117119 Page L2 ot 12

CONCLUSION
Petitioner's Amended Petition for Writ ofHabeas Corpus (ECF No. l2) should be DENIED,
and ajudgment ofDISMISSAL should be entered. A Certificate of Appealability should be denied
on the basis that petitioner has not rnade a substantial showing

ofthe denial of a constitutional right

pursuant to 28 U.S.C. $ 2253(c)(2).

This recommendation is not an order that is irnmediately appealable to the Ninth Circuit
Court of Appeals. Any notice of appeal pursuant to Rule 4(a)(l), Federal Rules of Appellate
Procedure, should not be filed until entry of the district court's judgment ot appealable order. The

parties shall have fourteen (14) days

fron the

date

of service of a copy of this recommendation

rvithin rvhich to file specific rvritten objections with the court. Thereafter. the parties shall have
fourteen (14) days within which to file

a response

to the objections. Failure to timely file objections

to any factual detennination ofthe Magistrate Judge

will

be considered as a waiver of a parly's right

to de novo consideration of the factual issues and rvill constitute a waiver of a pafty's right to
appellate review

of the findings of fact in an order or judgment

entered pursuant

recommendation.

DATED this 17th day of April,2019.
/s/ Jolie Russo
Jolie A. Russo
United States Magistrate Judge

.I2

- FINDINGS AND RECOMMENDATION

Appendix 21

to this

Case 6:l-7-cv-00145-PK Document

IN THE CIRCUIT

1

Filed LOl33.l17 Page 330 of 347

COURT OF

THE STATE OF

OREGON

FOR THE COUNTY OF UMATILLA

2
3

26-1

KORY PEDERSEN,

4

Petitioner,

Umatil-la County

5

vs.

No.

6
7

Circuit Court

RICK COURSEY, Superintendent,
Eastern Oregon Correctional

CV120100

cA ALs6672

Institution,

DefendanL.

8

9

TRANSCRIPT OF PROCEEDINGS ON APPEAL

10

BE

11

IT

REMEMBERED

that the above-entit]ed

T2

Court and cause came on regularly for hearing before

13

the

T4

day of March, 2013, at the Umatilla County

t_5

Courthouse, Pendleton, Oregon.

I6

Honorabl-e Jack

A. Billings, on Thursday, the l-3th

APPEARANCES

Attorney at

I7

Noel- Grefenson,

t_8

Vanessa A. Nordyke, Assistant Attorney General,
Appearing on behalf of the Defendant.

L9

Law,

Appearing on behalf of the Petitioner,'

20
21-

zz
23

24

KATIE BRADFORD, CSR 90-0148

Court Reporter
(s03) 267-st1-2

Proceedings recorded by digital sound recording,'
transcript provided by Certified Shorthand Reporter

25
EXHIBIT 122, Page I of 32
Case No. 6: 1 7-cv-001 45-PK

Appendix22

Case 6:l-7-cv-00l45-PK Document

26-2

Filed

LOl3tlLT Page 9 of l-39
27

l_

petitioner had told Lhem. They addressed it.

z

fact, they were fighting about that issue throughout

3

the t.rial-.

In

So it wasnlt as t.hough counseL spoke

4
5

with petitioner, got no decent information to support

6

the accidentaf discharge theory, and then didn't

7

pursue it all.

8

9

10

They were pursuing

it.

And the

State, Iikewise, was seeking to refute iL. So iu
wasn't just gravy. That was pinnacle on which the
case was turning.

As I said before, I believe that -- that

11

t2

an attorney exercising reasonable professionaf skil1

13

and judgment would have recognized the need to

L4

establ-ish a -- a basis for the accidental discharge

15

though expert testimony,' would call- these experts,

L6

and if they had done so, therers a reasonabfe

L7

probability that -- that the

L8

different.

outcome wou1d have been

right.

Wefl,

L9

THE COURT: A11

20

I've appreciated your arguments. And I've

21-

taking

zz

here, that. the accidental discharge question was a

23

bit of a red herring.

24
25

some

Counsef,
been

notes. I -- I'ITI, frankly, of the view

And I can see why it would have been

useful for the defense to pursue it, because it

would

EXHIBIT 122,Pa7e27 of 32
Case No. 6:1 7-cv-00145-PK

Appendix 23

Case 6:17-cv-00145-PK Document

26-2

Filed

IO|3L|LT Page 10 of 139
28

l-

help t.ake the heat off the first

z

I'm going to continue to

3

the way the

4

him.

name

say,

looks to

me,

shot, which Mr.

Pedersen. f -- that's

to take the heat off

Clear1y, firing this first shot in close

5

7

quarters and while the Lestimony from petit.ioner at
trial- and here was, this was, basically, just a

8

warning shot. I'd -- I'm -- Lhe jury wasn't required

9

to believe that.

6

t_0

And I'm not required to believe it

and f don't.

It

1t_

seems

to

me

that the testimony that's

t2

highlighLed in Lhe transcript from the officer is

13

what I would refer to as chilling.

1-4

made

15

it.

L6

could have found Mr. Pedersen guilty of Attempted

I7

Aggravated Murder.

a reference to it, and so I went and looked at
And what. he had Lo say, was exactly why a jury

t_8
1"9

20

2t
zz

got a

'When

is it that you reafize that he's

"When

I see it.

gun?

points it right directly aL
"Where

He

brings it right tp,

me and

he fires aL me.

is it pointed when it goes off?

24

"Right at me.
"Why doesn't it hit

25

"I don't

23

And Lhe State

You?

know.
EXHIBIT 122, Page 28 ol32
Case No. 6:1 7-cv-00145-PK

Appendix24

Case 6:L7-cv-001-45-PK Document

26-2

Filed l-0/31-ll-7 Page

11-

of 139

29

"A11

1

z

And where does the bul-let

nl-t /

"It goes right next to

3
4

right.

my

hiP area,

right.
"How do you know that?

5
5

rrl coul-d f eel it

7

"What do you mean you could

feel it?

ttl can f eel- the pressure. I can f eel-

8

9

.

the pressure as it. goes by. I didn't know right

10

then. I thought I'd been shot. I didn't

1t-

I'd been shot. "
So

12

the idea that this is just

know where

some

13

warning shot that goes so cfose to the officer that

L4

he can feel- this pressure going by, I believe the

l_5

jurors were entitled to find that that intent -- that

1"6

was an

t7

Attempted Murder conviction.

intentionaf act and was the basis for the
And the idea that somehow the second

18

L9

shot, whether it was accidental as a result of his

20

hand being blown up

2L

the cake for the State and it

22

argument

23

or not, would have been icing
made for an

on

interesting

for the defense.
And I can see that Brady and Knowles

But you never --

24

could have helped bolster that.

25

they couldn't help you a bit with the qr-restion of

Lhe

EXHIBIT 122, Page 29 of 32
Case No. 6:1 7-cv-00145-PK

Appendix 25

Case 6:17-cv-00145-PK Document

26-2

Filed IOl31.lL7 Page 12 of L39

30

t_

first shot, which was clearly intentionally fired.
Depending on

a

the then what theory

you

3

have of why it was fired, it would have been better

4

to take the position, I think, that it

5

sel-f -defense

6

think that was the way in which this thing

7

prosecuted or was defended.

was

right from the get-go. But T don't
was

8

Anyway, I don't find error in this case.

9

I don't find that any of the Church v. Gladden claims
And so for those reasons I do find

10

has any merit.

11

that the case should be dismissed.
I have relied in concluding on these

12
13

matters for the oral and written arguments of defense

l4

counsef and I include for consideration if therers

15

appeal my remarks at the end of the case.

an

So, Mr. Grefenson, if you would be sure

1-6

l7

that your client is aware of his right of appeal.

18

It's your custom, I think, to always file one for

1_9

and I appreciate that.

20

to

him

I think that's the wise way

go.

Mr. Pedersen, f 'ITl ruling

2a

-

- ruling

zz

againsL your claim here today. You do have the

23

opportunity for an appeal to the Court of Appeals.

24

Mr. Grefenson either has or will discuss that with

25

you.
EXHIBIT 122, Page 30 of 32
Case No. 6:1 7-cv-00145-PK

Appendix 26

Case 6:l-7-cv-00L45-PK Document

26-2

Filed LO|3L|LT Page 13 of L39

3l_

And

l_

z

wet1l concfude these proceedings at

this time.

3

MR. GREFENSON: Thank you.

4

THE COURT:

5
6

7

I

Thank

you. Counsel, I

appreciate it.
MS.

NORDYKE:

Thank

you, Your Honor.

***
(Conclusion of proceedings, 3-l-3-1-4 at 9:3L a.m.

)

9
l_0

11

t2
13
1_4

15
1,6

77
1-8

L9
20

2t
22
23
24
25
EXHIBIT 122, Page 31 of 32
Case No. 6:1 7-cv-00145-PK

Appendix 27

Case 6:17-cv-001-45-PK Document

I

i.l

26-2

Filed LOl31.lL7 Page 16 of l-39

i, t. I ui ii:
i,ijiir 1 ',. :,i: lir

1

i:;.....,.:,1 ; ;..*.r,;,,ii \t.j.:
t

2

tN rHE

b
4
5
6
7

I
s

rrr

;:
illl

|

iil

t' .'

UF{ATil..l,

1,

UlitrUiT

.:'

?0lr'

.,-;.".
i.i'.:";i::
crRcuff'a-buniuF*ggsrnii or
..,. -..

i'"ri: .ii.i;-l

FOR THE COUNTY OF UMATILLA

stD

16957915

'l'ftlr:'L

oREGoN

Hnfi I ?
C0llfti Ll'

J
ilui{ il
T

!:

03

ISIfiAT;ii

B

CASE NO ,

Kory Pedersen

;l

evt?nloo

Fetitioner/Plaintiff.
JUDGMENT

vs,
Rick Coursev

superintend6nt

p.Genenl !

Supplemental

EJ

Easiem qregofl Con:ctional lnstitution
Dof€ndant.

10
11

12
13
14

t5
16
17
18

t9
2A

a U Trial fl
il PlaintiffPelitioner's I E Petition for Post"Convictlon Relief u
n oefendanuRospondenfs I D Motion for Summary Judgment

The above-entltled matter came belore the Court March 13,2014 for
I

Hearing regarding:
Motion to Dismlss

I

NOW, THEREFORE, IT IS HEREEY ADJUDGED THAT THE:

1. A

Petition for Posl-Conviction

-- Allowedl

Relief D Motion lo Di$mis$

E

Motion

fff

Summsry Judgment is:

Ll

fi
1,a. I

Dented;
Per ORS '138,525, the Pelition is dlsmisoed a$ meritless, and is lherefore nol appealable.

Based upon the following findings and conclusions:

/I

21

?2

Fxh ,'61ft'

23

q

14-

l;q

24

25
20

26

cv120100
Judgment

-

Page 1 of 3

Post-Conviclion

1,6
EXHIBIT 123, Page 1 of 6
Case No. 6:1 7-cv-00145-PK

Appendix 28

Case 6:17-cv-001-45-PK Document

26-2

Filed LOl31.lL7 Page 17 of 139

Petitioner and a deputy sheriff engaged in a gun fight inside Petitioner's motor home.'
The deputy had called Petitioner out to discuss his overnight parking in a day use park,
The situation quickly deteriorated and Petitioner was Tasered twice, once outside and

again inside his rnotor home. He drew a gun, and shot in the directlon of the deputy.
The officer returned fire and one of his shots hit Petitioner in his gun hand. His gun
discharged again, although his hand was significantly injured. Petitioner's theory of the
case was that his first shot was merely in warning and the second was the accidental,
physical reaction of the deputy's bullet striking his trigger finger.
Counselfor Petitioner oalled an expert, Hoyer, who had extensive experience in crime
ecene preservation and analysis. Hoyer testified that it was very possible that
Petitioner's gun discharged because his finger was hit by the depu$'s bullet, Petitioner,
through counsel, faults his trial attorney because he did not call other witnesses to
amplify Hoyer's testimony, He concludes that he received inadequate assistance of
counsel. He also contends that counsel should have attacked the deputy's lack of
probable cause to arrest Petitioner for what was basically a parking violation.

Counsel for Petitioner has elected nol to argue a third claim, that he did not rec€ive
adequate assistance for his appetlate attorney, The court finds that this claim was
without significant legal merit, and finds that Petitioner has not carried his burden of
proof.
Petitioner has also filed three claims Church v. Gladden,241 OR 308 (1966) which
Counsel does rroi certify, Defsnse counsel has filed an answering brief and the issues
are properiy joined before the coutt.

The law governing claims for post-conviction relief is easily stated, but not so facilely
applied. All aglee that the seminal United States Supreme Court case is Strickland v.
Washington,466 US 668 {1984). That case provides thatthe petitioner has the burden
of proof on two, closely telated poirrts, of "prongs". First, the petitioner must show that

defense counsel made errors so serious as to deny the right to effectlve counsel, as
guaranteed by the $ixth Amendment. The second requirement is that the petitioner
musl prove that the deticient per{ormance significantly prejudiced the defense. The
question is whether ihe deficiencies had a real tendency to affect the outcome. As set
forth in Strickland, "tllere is a reasonable probability lhat, but for counsel's professional
error$, the result of lhe proceeding would have been different". /d. at 694. The
standards for assessing the adequacy of counsel under the state and federal
constitutions are ''furrctionally equlvalerft,i' Montez v, Czerniak, ?37 Ar App, 276,275
(2010), Whether alleged orrorc by trial counsel had a sigrrificant tendency to affect the
outcome is quite subjective, and directed to the sound discretion of the court. Similar
standards apply to appellate counsel.
Petitioner offers ihe reports of Dr. Willianr Brady and Gary Knowles. Both have
impressive resurnes and lil<ely lvould have bolstered the testimony of Mr. Hoyer.
Petjtioner's problem is that neither of these witnesses, as wittr Hoyer, could deflect the
fact that Petitioner hrrd already fired a first shot directly toward the deputy, before he

EXHIBIT 123,Page2of 6
6:1 7-cv-00145-PK

Case No.

Appendix 29

Case 6:l-7-cv-00145-PK Document

26-2

Ftled LOl31,lL7 Page 18 of 139

was shot in the hand. The jury was entitled to treat the first shot as the basis for
Petitioneis conviction. The testimony was chilling:

",,,.And he's digging all around in there, and grabs a .45 and comes straight up right at
me.

O.
A,
and I --

0.
A,
O,
A,
O.
A.
0,
A.
0.
A.

Okay, When is it that you realize that he's got a gun?

When I see

it.

He brings it right up, points it right directly at me. And l start to drop my Taser
my radio, and his gun goes off. He fires at me and
Where is it pointed when it goes off?
Riglit at rtre.
.....Pvlhy doesn't he hit You?
ldon't know. .....

--

All right. And where does the bullet hit?
lt goes right next to my hip area, right -Hor,v cJo you know that?

lcan feel

it',)

What do you treafl you can 1'eel it?
I can feei 'the pressure, I can feel tfie pressure as it goes by,r And I didn't
know right then -* i ihought I had been shot. I didn't know where l'd been shot, I could
feel the effecte ft'om it, frorn my leg up my side on my left side." (Tr. 2At264)
The additional experts would not have aided Petitioner's case, since they could offer
nothing abuut ihe first shot. Petitionet testified that he fired the first shot merely as a
warning, Hcwever, the jury '*vErs entitled to disbelieve him. '

'ln this proceecling, F'etitioner was called by the defense. He stated that he and his trial

attorney discussed a self- deienso theory, contrary to the position stated in his brief. He
again said tira'l ire fired tire first shot to warn ihe officet. The court does not find this
testirnony crectible. Petitj,rne,r has irot carried his burderr crn this claim.

Petitioner's other claim is that counsei should have moved to suppress all the evidence
of deputy Millel as he exseed,rd his autlrarity fronr the montent he drew his Taser and
fired it at Petitiorier. Counselfor Petitiorrer acknov'rledges that Oregon case law is to the
contrary and ciies State v, Neiil, 216 OtApp 499 i2007). Even if this coutt would
conclude (and does not) that the deputy exceeded his authority, suppression wouid not
have bsen available. Again, F'etitioner lrau rrot proyen his claim,
I'tre couft has rr-'ad and consiiiereri Petitiorrer's Clrurclt v. Gladden claims and finds that
norre have rrrerit. Peltiiiorrel L,ras not carried his burden I'o show that any error occurred
or that such claimed errors had the substantial likelihood of affecting the outcome of the
cas€r.

EXHIBIT 123, Page 3 of 6
6:1 7-cv-00145-PK

Case No.

Appendix 30

Case 6:L7-cv-00145-PK Document

26-2

Filed IOl3l-117 Page 19 of 139

For the foregoing reasons, Petitioner's case is dismissed. The court has relied in part
on the oral and written arguments of defense counsel, and any remarks given at the end
of these proceedings

EXHIBIT 123, Page 4 of 6
Case No. 6:1 7-cv-00145-PK

Appendix 31

Case 6:l-7-cv-00L45-PK Document

26-2

Filed 1.Ol3LlL7 Page 20 of 1-39

1

2
3
4
5

6
7

I
I 2.

El FeOeral EState

Thi$ matter involves

t0

end decided.

tt

F

12

purposes of Ies Judlcata.

t3

D

14

by:

3.a, This judgment shall constitute a ffnal genoral Judgmenl tor purpos€s of appellale review and for

S.O.

fnis juOgmenl is a limited judgment; the final generalJudgmenl shall be preparod and submitled

of the above,menlioned hearing date, ol in any caee, no

within

15
1ts

Constitutional issue(s). All questions wore presented

later than

-days

17

GENERAL JUDGMENT

1S

19

20

For the reasons stated on the record, it is further.ordered that a Eenersl judgment be, and hereby is given

21

in favor of

22

For the reasons ststed on tho record, lt is further ordered thst tho general Judgment include:

23
24
26
26
27

28

rher

n PLAINTIFF/PETITTONER

Attomey fees in the sum of $
Coste ln ths sum of

$

_;

EJ DEFENDANT/RESPONDENT

andlor
.

t

I Plalnttfs Attorney fees and/or cosf$ sia/, te becamo a tien agalnst lhe Ptainlitrs Depanment
Cornclians Trust Account, payable a$ funds may became available in such accounl for
or salislaclion of sald llen. Any sum remaining unpaid upon release of Plalntitt shall ba
ln
as sel 0y the Plaintiffs post^pisonlparcle supervislon officer said paymentg fo be
la
financial ability of Plaintlff make such paynenls,

Judgmont

*

Post€onviction

P€ge 2 ot 3

EXHIBIT'123, Page 5 of 6
Case No. 6:1 7-cv-00145-PK

Appendix 32

Case 6:L7-cv-00l45-PK Document

26-2

Filed 1-0/31-/l-7 Page 2L of 1-39

I

MONEY AWARD

1

2

Rick Coursev

3

Judgment Creditor

4

666p6ss,.EOCI, 2500 Westgate, Pendleton OR S7801

Superintsndent

(

Ropresented

6

Attomey Address: 1162 Court Street NE, Salem, OR 97301

7

Attorney

I
I
10

by:.

Phone;

Attorney Gen€ral

-

DOJ Trlal Div.

503.€47.4723

Judgment Amount

$

lnterest:

q

11

12

Kory Pedersen

Judgment

Debtor Birth

6t11h570

16957S15

13
14'

AdetresE: EOCI, 2500 Westgate, Pendleton OR 97801

15

Represented by:

t6

GREFENSON, Noel it882168

Attomey Addross;

ORPCC. 1416 Llbetu St SE, Salom OR 97302

17

Attorney Clty Stale Zip:

oRPCC, 1415 Ltbeny St SE, Salem OR 97302

t8

Atlomoy Phone:

(503) 371-1700

19

Social Sec" #ffax lD;

20

Driver'$ Lic. #/Stat6:

21
22
23

DATED this

- ;ll-

oay of

t4t*,?L

2014

.

24

25

J

26

Chcuit Courl Judge

Signalure

27
2A

cv120100

Judgmont

-

Posl-Convlclion

Pag€ 3 of 3

EXHIBIT'123, Page 6 of 6

Case No. 6:1 7-cv-00145-PK

Appendix 33

Case: 19-35599, 03n312021, lD: 12022544, DktEntry: 49, Page 1 of

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

1

FILED
MAR 3 2021
MOLLY C. DWYER, CLERK

No.

KORY CHRISTIAN PEDERSEN,
Petiti oner-App ell ant,

v

l9-35599

U.S. COURT OF APPEALS

D.C. No. 6: 1 7-cv-00145-JR
District of Oregon,
Eugene

OREGON BOARD OF PAROLE AND
POST-PRISON SUPERVISION,

ORDER

Respondent-Appellee.

Before: BERZON, MILLER, and BRESS, Circuit

Judges.

The panel has unanimously voted to deny Appellant's petition for panel
rehearing and rehearing en banc. The fuIl court has been advised of the petition for
rehearing en banc, and no judge has requested a vote on whether to rehear the matter
en

banc. Fed. R. App. P. 35.
The petition for panel rehearing and rehearing en banc (Dkt. No. 48) is

DENIED.

Appendix 34

